                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: Al3030049                                                                      Page 1 of 1


                 NSF OIG received an allegation of plagiarism in an NSF pre-proposal. 1 Our analysis
         identified allegedly copied text from four sources.

                We contacted the Subject2 regarding the allegation. Based on his response, we
         determined the Subject had previously worked with two of the source's co-authors and therefore
         excluded that text from our analysis. However, though the Subject did list the remaining two
         sources in the reference section, he did not properly cite to those references in the body of the
         proposal near the copied text.

                 Given the small amount of questioned text remammg, together with the Subject's
         explanation, we concluded the Subject's action did not rise to the level of research misconduct.
         Therefore, we sent the Subject a letter reminding him of his responsibility give proper attribution
         to all collaborators and to correctly cite material included in his proposals. Accordingly, this
         case is closed with no further action taken.




NSF OIG Form 4 (11102)
